1600 Wilson Boulevard, Suite 700
Arlington, VA 22209
703.243.9423
www.consovoymccarthy.com

May 8, 2020
Hand Delivery
and Electronic Filing
Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, NW
Washington, DC 20543-0001
Re:

Donald J. Trump, et al. v. Mazars USA, LLP, et al., No. 19-715
Donald J. Trump, et al. v. Deutsche Bank AG, et al., No. 19-760

Dear Mr. Harris:
On April 27, 2020, this Court ordered the parties to brief whether the
political question doctrine or related justiciability principles bear on the Court’s
adjudication of these cases. In Petitioners’ view, they do not. As explained below,
these cases are justiciable.
To begin, there is no question as to justiciability from the perspective of
Article III standing. “To have standing, a plaintiff must present an injury that
is concrete, particularized, and actual or imminent; fairly traceable to the
defendant’s challenged behavior; and likely to be redressed by a favorable
ruling.” Dep’t of Commerce v. New York, 139 S. Ct. 2551, 2565 (2019) (citation
and quotations omitted). The disclosure of Petitioners’ private records to the
Committees is a “‘tangible’” injury; that injury is traceable to the subpoenas that
the Committees issued; and a ruling by this Court enjoining the enforcement of
those subpoenas would redress Petitioners’ injury. Spokeo, Inc. v. Robins, 136 S.
Ct. 1540, 1549 (2016). The President’s interest in ensuring the confidentiality of
his private papers is no less concrete than Congressman Powell’s “obvious and
continuing interest in his withheld salary.” Powell v. McCormack, 395 U.S. 486,
497 (1969). In short, “resistance to [a] subpoena present[s] an obvious
controversy in the ordinary sense.” United States v. Nixon, 418 U.S. 683, 696
(1974).
That Petitioners are not the direct recipients of these subpoenas changes
nothing. In Eastland v. U.S. Servicemen’s Fund, 421 U.S. 491 (1975), a Senate
subcommittee issued a legislative subpoena to the “bank where USSF then had
an account,” id. at 494. The Court held that the lawsuit had been “properly
entertained” even though USSF was not the direct recipient of the subpoena. Id.
at 501 n.14. When “a subpoena ... seeks information directly ... the party can

May 8, 2020
Page 2

resist and thereby test the subpoena.” Id. But when a subpoena “seeks the same
information from a third person ..., unless a court may inquire to determine
whether a legitimate legislative purpose is present, compliance by the third
person could frustrate any judicial inquiry.” Id. (citations omitted); see also id.
at 514 (Marshall, J. concurring in the judgment) (explaining that “a neutral
third party could not be expected to resist the subpoena by placing itself in
contempt”). Any other outcome would wrongly “immunize [the] subpoena from
challenge” based on “the fortuity that documents sought by a congressional
subpoena are not in the hands of a party claiming injury from the subpoena.”
United States v. AT&T Co., 567 F.2d 121, 129 (D.C. Cir. 1977); see also Bergman
v. Senate Special Committee on Aging, 389 F. Supp. 1127, 1130 (S.D.N.Y. 1975).
Unsurprisingly, then, neither the lower courts nor Respondents contested
Petitioners’ standing. See Appendix to the Petition No. 19-715 (“Pet. App.”) 86a87a (Rao, J., dissenting) (“A subpoena’s force extends beyond its recipient, which
the majority has implicitly acknowledged by declining to question President
Trump’s standing to challenge the subpoena’s validity.”); Joint Appendix
(“App.”) 191a (“In this case, the inevitable impingement of the same privacy
interests that suffice to confer standing to plaintiffs also suffice to demonstrate
a likelihood of irreparable harm.”); App. 231a (“[W]e note that there is no dispute
that Plaintiffs had standing in the District Court to challenge the lawfulness of
the Committees’ subpoenas by seeking injunctive relief against the Banks as
custodians of the documents.”).
Nor has the political question doctrine or any other justiciability concern
been raised. And for good reason. In the main, “a controversy involves a political
question where there is a textually demonstrable constitutional commitment of
the issue to a coordinate political department; or a lack of judicially discoverable
and manageable standards for resolving it.” Zivotofsky ex rel. Zivotofsky v.
Clinton, 566 U.S. 189, 195 (2012) (cleaned up). Neither concern is present here.
Resolution of this dispute hasn’t been committed to the political branches.
In United States v. Nixon, the argument was made that, since the litigation over
the subpoena for President’s Nixon’s records was an “‘intra-branch dispute,’” it
was a “political question.” 418 U.S. at 692-93. But the Court disagreed, holding
that there was not “a ‘textually demonstrable’ grant of power under [Article II]”
that created “a barrier to justiciability.” Id. at 693-97. “Whatever the correct
answer on the merits,” the Court held, “these issues are of a type which are
traditionally justiciable.” Id. at 697 (citation and quotations omitted). Similarly,
the Court held that the dispute over a House resolution refusing to seat Adam
Clayton Powell was not textually committed to Congress. See Powell, 395 U.S.
at 518-48. Nothing in Article I, the Court explained, gave “the House judicially
unreviewable power to set qualifications for membership and to judge whether
prospective members meet those qualifications.” Id. at 520. If the Nixon dispute

May 8, 2020
Page 3

was not textually committed to the Executive, and the Powell dispute was not
textually committed to Congress, then this dispute plainly is not committed to
the political branches either.
More fundamentally, the Court has never considered a dispute over the
scope of Congress’s power to legislate to be textually committed to that branch
under Article I. That is because “when an Act of Congress is alleged to conflict
with the Constitution, ‘it is emphatically the province and duty of the judicial
department to say what the law is.’” Zivotofsky, 566 U.S. at 196 (quoting
Marbury v. Madison, 5 U.S. 137, 177 (1803)). “No policy underlying the political
question doctrine suggests,” therefore, “that Congress or the Executive ... can
decide the constitutionality of a statute; that is a decision for the courts.” INS v.
Chadha, 462 U.S. 919, 941-42 (1983); see also Powell, 395 U.S. at 549 (“Our
system of government requires that federal courts on occasion interpret the
Constitution in a manner at variance with the construction given the document
by another branch. The alleged conflict that such an adjudication may cause
cannot justify the courts’ avoiding their constitutional responsibility.”).
That rule applies with equal force to congressional subpoenas. Deciding
whether a legislative subpoena exceeds Congress’s authority under Article I, i.e.,
whether it has a “legitimate legislative purpose,” Eastland, 421 U.S. at 501 n.14,
is no less susceptible to judicial review than is “formal legislation,” see United
States v. Rumely, 345 U.S. 41, 46 (1953). Congress is not “the final judge of its
own power and privileges.” Kilbourn v. Thompson, 103 U.S. 168, 199 (1880).
Thus, the Court “has not hesitated” to invalidate congressional subpoenas when
“Congress was acting outside its legislative role.” Tenney v. Brandhove, 341 U.S.
367, 377 (1951). “Assumption of jurisdiction” over this kind of challenge to a
congressional subpoena “does no violence to the doctrine of separation of powers,
for the matter falls within the responsibility entrusted to the judiciary, however
reluctant the latter may be to assume jurisdiction.” Sanders v. McClellan, 463
F.2d 894, 899 (D.C. Cir. 1972).
Nor is there “a lack of judicially discoverable and manageable standards
for resolving the question before the court.” Zivotofsky, 566 U.S. at 197 (citations
and quotations omitted). That barrier to review exists if the Court cannot issue
a ruling that is “principled, rational, and based upon reasoned distinctions found
in the Constitution or laws.” Rucho v. Common Cause, 139 S. Ct. 2484, 2507
(2019) (citation and quotations omitted). That is not a concern here. There are
manageable standards for resolving every element of this dispute. They exist for
evaluating whether history and tradition support deploying Congress’s implied
authority to issue subpoenas in aid of legislation in this unprecedented manner.
Brief for Petitioners 24-35. They exist for evaluating whether the Committees
have exercised responsibilities entrusted to another branch of government. Id.
at 36-45. They exist for evaluating whether these subpoenas could lead to valid

May 8, 2020
Page 4

legislation. Id. at 45-52. They exist for evaluating whether the Committees have
a heightened need for these records. Id. at 52-55. And they exist for evaluating
whether the Committees had the statutory authority to issue these subpoenas.
Id. at 55-65. “Recitation of these arguments—which sound in familiar principles
of constitutional interpretation—is enough to establish that this case does not
‘turn on standards that defy judicial application’ .... This is what courts do.”
Zivotofsky, 566 U.S. at 201 (quoting Baker v. Carr, 369 U.S. 186, 211 (1962)); see
also United States v. Munoz-Flores, 495 U.S. 385, 395-96 (1990).
That this case involves the application of a constitutional test to transient
facts does not make the dispute unmanageable. There are myriad decisions that
assess whether a congressional committee had a legitimate legislative purpose
under an array of circumstances. See Eastland, 421 U.S. at 501-11 (collecting
cases). “Surely a judicial system capable of determining when punishment is
‘cruel and unusual,’ when bail is ‘excessive,’ when searches are ‘unreasonable,’
and when congressional action is ‘necessary and proper’ for executing an
enumerated power is capable of” deciding whether these subpoenas exceed
Congress’s legislative power under Article I. Munoz-Flores, 495 U.S. at 396
(cleaned up).
Holding otherwise would have sweeping ramifications. It would not only
disable the President from challenging congressional subpoenas for his private
records. It would mean, contrary to every decision from Kilbourn to Eastland,
that nobody—not even ordinary individuals, associations, and businesses—may
judicially contest a congressional subpoena. If the legitimate-legislative-purpose
test is unmanageable, after all, then the issue is a political question irrespective
of the parties’ identity. See Munoz-Flores, 495 U.S. at 393-94. Abandoning this
well-worn judicial inquiry into the legitimacy of congressional subpoenas would
overturn 139 years of precedent without any justification for doing so.1
At times, the Court also has suggested that the political question doctrine
could apply based on “the impossibility of ... undertaking independent resolution
without expressing lack of the respect due coordinate branches of government,”
“the potentiality of embarrassment from multifarious pronouncements by
1 If there is any basis for criticizing Eastland, it is that the decision artificially narrowed
the scope of judicial review. The Court correctly held that the Speech or Debate Clause does not
foreclose a challenge to a congressional subpoena’s legitimate legislative purpose. See Eastland,
421 U.S. at 501 & n.14. But the Court also held that third-party subpoenas cannot be challenged
under the First Amendment or other provisions of the Bill of Rights. See id. at 509-10 & n.16.
The notion that a civil rights group, for example, cannot bring a First Amendment challenge to
a congressional subpoena issued to a third-party custodian for its membership rolls is difficult—
if not impossible—to defend. But for this dubious holding, Petitioners would’ve brought a First
Amendment retaliation claim in this case. See Reply Brief for Petitioners 8 n.2.

May 8, 2020
Page 5

various departments on one question,” “the impossibility of deciding” the case
“without an initial policy determination of a kind clearly for nonjudicial
discretion,” or “an unusual need for unquestioning adherence to a political
decision already made.” Baker, 369 U.S. at 217. But it is far from clear that these
considerations provide an independent basis for rendering a case nonjusticiable.
See Zivotofsky, 566 U.S. at 195; Vieth v. Jubelirer, 541 U.S. 267, 278 (2004)
(plurality opinion); see also El-Shifa Pharm. Indus. Co. v. United States, 607
F.3d 836, 856 (D.C. Cir. 2010) (en banc) (Kavanaugh, J., concurring in the
judgment); Center for Biological Diversity v. Mattis, 868 F.3d 803, 822 (9th Cir.
2017).
Regardless, deciding this case on the merits would in no way show a lack
of respect for the political branches or lead to embarrassment. “[A]
determination” as to whether the Committees have exceeded their Article I
authority “falls within the traditional role accorded courts to interpret the law.”
Powell, 395 U.S. at 548. If that is “disrespect” for Congress, then “every judicial
resolution of a constitutional challenge to a congressional enactment would be
impermissible.” Munoz-Flores, 495 U.S. at 390. The Court thus has “repeatedly
rejected the view that these thresholds are met whenever a court is called upon
to resolve the constitutionality or propriety of the act of another branch of
Government.” Zivotofsky, 566 U.S. at 204 (Sotomayor, J., concurring in part and
concurring in the judgment).
Nor does resolution here depend on an initial policy determination. The
Court is not asked to decide if issuing these subpoenas is good policy. It is asked
to decide if they exceed the Committees’ constitutional and statutory authority.
Accord Zivotofsky, 566 U.S. at 195 (majority opinion). Similarly, nothing about
this dispute requires the Court to revisit a political decision—let alone one to
which there is an unusual need for adherence. The Court’s “cases suggest that
such ‘unusual need’ arises most of the time, if not always, in the area of foreign
affairs.” Oneida Cty., N.Y. v. Oneida Indian Nation of New York State, 470 U.S.
226, 250 (1985).
“It is correct that this controversy may, in a sense, be termed ‘political.’
But the presence of constitutional issues with significant political overtones does
not automatically invoke the political question doctrine.” Chadha, 462 U.S. at
942-43; see Japan Whaling Ass’n v. Am. Cetacean Soc., 478 U.S. 221, 230 (1986);
Baker, 369 U.S. at 217. Federal courts may not “decline to resolve a controversy
within their traditional competence and proper jurisdiction simply because,” as
is the situation here, “the question is difficult, the consequences weighty, or the
potential real for conflict with the policy preferences of the political branches.”
Zivotofsky, 566 U.S. at 205 (Sotomayor, J., concurring in part and concurring in
the judgment). The losing party naturally will disagree with the decision the
Court reaches on the merits; “but courts cannot avoid their responsibility merely

May 8, 2020
Page 6

‘because the issues have political implications.’” Id. at 196 (majority opinion)
(quoting Chadha, 462 U.S. at 943)); see also Cohens v. Virginia, 19 U.S. 264, 404
(1821) (“We have no more right to decline the exercise of jurisdiction which is
given, than to usurp that which is not given. The one or the other would be
treason to the constitution. Questions may occur which we would gladly avoid;
but we cannot avoid them. All we can do is, to exercise our best judgment, and
conscientiously to perform our duty.”).
Mislabeling these disputes as political questions also would be grossly
inequitable. From a separation of powers vantagepoint, the political question
doctrine is rooted in the understanding that each political branch “has resources
available to protect and assert its interests, resources not available to private
litigants outside the judicial forum.” Goldwater v. Carter, 444 U.S. 996, 1004
(1979) (Rehnquist, J., concurring in the judgment). That rationale evaporates,
however, when Congress seeks the President’s personal records from a thirdparty custodian. Had the Committees not circumvented the President, he could
have declined to comply with the subpoenas, and the dispute could have been
resolved by “political struggle and compromise.” Barnes v. Kline, 759 F.2d 21,
55 (D.C. Cir. 1984) (Bork, J., dissenting), vacated sub nom. Burke v. Barnes, 479
U.S. 361 (1987).2
But judicial abstention here would not fence off the Court from “a political
tug-of-war.” Raines v. Byrd, 521 U.S. 811, 834 (1997) (Souter, J., concurring in
the judgment). It would be writing every congressional committee a blank check
to subpoena any personal records it wants from any President any time it wishes
simply by seeking those records from a custodian with no incentive to draw the
ire of Congress. That is constitutionally intolerable. Cf. Nixon v. Sirica, 487 F.2d
700, 715 (D.C. Cir. 1973). The members of Congress are not “the constitutional
judges of their own powers.” The Federalist No. 78, at 524-25 (A. Hamilton)
(Jacob E. Cooke ed. 1961). Judicial review is thus the only recourse that the
President has under these circumstances. See Eastland, 421 U.S. at 501 n.14.
Furthermore, the Court doesn’t “‘proceed against the president as against
an ordinary individual,’” but instead extends him the “high degree of respect due
the President of the United States.” Nixon, 418 U.S. at 708, 715. This is not out
of concern for any “particular President,” but for “the Presidency itself.” Trump
2 It is likely that civil litigation over the subpoenas would have been foreclosed had the
Committees issued them to the President. The Committees would lack Article III standing to
bring a civil action contesting noncompliance. See Committee on Judiciary v. McGahn, 951 F.3d
510, 516-22 (D.C. Cir. 2020), vacated and reh’g en banc granted by United States House of
Representatives v. Mnuchin, 2020 WL 1228477 (D.C. Cir. March 13, 2020). And the D.C. Circuit
has held that a direct recipient may contest a legislative subpoena only in defense to a criminal
prosecution for contempt of Congress. See Sanders, 463 F.2d at 899.

May 8, 2020
Page 7

v. Hawaii, 138 S. Ct. 2392, 2418 (2018). That is no less true when the President
appears in his personal capacity. See, e.g., Clinton v. Jones, 520 U.S. 681, 68990 (1997). Yet deeming this case nonjusticiable would afford the President fewer
rights than Eastland gives ordinary individuals. No decision or neutral principle
could justify that dichotomy.
Finally, any suggestion that the inapplicability of the political question
doctrine alleviates the serious separation of powers issues that these subpoenas
raise would be misplaced. Just as in Clinton v. Jones, the President is appearing
both as an individual and as the occupant of the office. That is inevitable given
the “unique position in the constitutional scheme” that he “occupies.” Nixon v.
Fitzgerald, 457 U.S. 731, 749 (1982); see In re Lindsey, 158 F.3d 1263, 1286 (D.C.
Cir. 1998) (Tatel, J., concurring in part and dissenting in part). These cases
therefore trigger all of the separation-of-powers concerns that make litigation
involving the President unique. See Clinton, 520 U.S. at 711-22 (Breyer, J.,
concurring in the judgment); Pet. App. 86a-88a (Rao, J., dissenting); Pet. App.
215a (Katsas, J., dissenting from denial of rehearing en banc); Pet. App. 218a
(Rao, J., dissenting from denial of rehearing en banc); App. 343a (Livingston, J.,
concurring in part and dissenting in part).
Nor is there anything unusual about separation-of-powers issues being
joined through litigation brought by individuals or other private parties. That
objection “reduces to the claim that a person suing in his individual capacity has
no direct interest in our constitutional system of separation of powers, and thus
has no corresponding right to demand that the Judiciary ensure the integrity of
that system.” Munoz-Flores, 495 U.S. at 393. But the objection is meritless; “the
Court has repeatedly adjudicated separation-of-powers claims brought by people
acting in their individual capacities.” Id. at 394 (citing Mistretta v. United
States, 488 U.S. 361 (1989)); see Bond v. United States, 564 U.S. 211, 222 (2011)
(“The recognition of an injured person’s standing to object to a violation of a
constitutional principle that allocates power within government is illustrated …
by cases in which individuals sustain discrete, justiciable injury from actions
that transgress separation-of-powers limitations.”). Indeed, such cases are
legion. See, e.g., NLRB v. Noel Canning, 573 U.S. 513 (2014); Morrison v. Olson,
487 U.S. 654 (1988); Bowsher v. Synar, 478 U.S. 714 (1986); Nixon v. Adm’r of
Gen. Servs., 433 U.S. 425 (1977).
*

*

*

Just as “a law beyond the power of Congress, for any reason, is no law at
all,” a subpoena beyond the power of a congressional committee to issue is no
subpoena at all. Bond, 564 U.S. at 227 (Ginsburg, J., concurring) (citation and
quotations omitted); see also The Federalist No. 78, at 524 (A. Hamilton) (“No
legislative act ... contrary to the Constitution ... can be valid.”). The issue here

May 8, 2020
Page 8

is whether these subpoenas are beyond the power of these three Committees.
Petitioners have Article III standing to litigate that issue, resolution of it does
not raise a political question, and no related principle renders it nonjusticiable.
The “exceptionally important questions regarding the separation of powers
among Congress, the Executive Branch, and the Judiciary” that these cases
present should be decided on the merits. Pet. App. 215a (Katsas, J., dissenting
from denial of rehearing en banc).
Sincerely,

William S. Consovoy
cc:

All counsel of record

